No.
IN THE SUPREME COURT OF THE UNITED STATES
October Term 2020
JIMMY MCLAIN MOORE
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

MOTION TO PROCEED IN FORMA PAUPERIS
6th Circuit Case No. 19-5371

MARK E. BROWN (TN. BPR #021851)*
Attorney for the Petitioner Jimmy McLain
Moore appointed under the provisions of the
Criminal Justice Act, 18 U.S.C.§3006A
MENEFEE & BROWN, P.C.
9724 Kingston Pike, Ste. 505
Knoxville, Tennessee 37922
Phone: (865) 357-9800
Fax: (865) 357-9810
e-mail: mbrown@menefeebrown.com
*Counsel of Record (CJA)

MOTION TO PROCEED IN FORMA PAUPERIS
COMES Jimmy McLain Moore, by and through his court-appointed counsel, and pursuant
to United States Supreme Court Rule 39, and respectfully moves this Honorable Court for leave
to proceed in forma pauperis. In support of this Motion and for good cause shown, Jimmy McLain
Moore, by and through counsel states that he was represented in all proceedings in the United
States District Court for the Eastern District of Tennessee and in the United States Court of Appeals
for the Sixth Circuit by counsel who was appointed pursuant to the Criminal Justice Act of 1964,
as amended. Pursuant to United States Supreme Court Rule 39.1 and 18 U.S.C. §3006A(d)(7), no
affidavit or declaration of indigency is required.
Respectfully submitted this 30th day of July 2020.
/s/ Mark E. Brown
Mark E. Brown (TN. BPR #021851)
Attorney for the Petitioner Jimmy McLain Moore
under the provisions of the Criminal Justice Act, 18
U.S.C. §3006A
MENEFEE & BROWN, P.C.
9724 Kingston Pike, Ste. 505
Knoxville, Tennessee 37922
Phone: (865) 357-9800
Fax: (865) 357-9810
e-mail: mbrown@menefeebrown.com

CERTIFICATE OF SERVICE
I hereby certify that on this 30th day of July a true and exact copy of this document has
been filed via this Court’s electronic filing system, along with the original and ten (10) copies via
Federal Express overnight delivery to Scott Harris, Clerk – Supreme Court of the United States –
One First Street, N.E., Washington, D.C. 20543. A true and exact copy of this document has also
been served on SOLICITOR GENERAL OF THE UNITED STATES, DEPARTMENT OF
JUSTICE, Room 5614, 950 Pennsylvania Avenue, N.W., Washington, D.C. 20530-0001 by
placing the same in the United States Mail, first class postage pre-paid on this 30th day of July
2020.

/s/ Mark E. Brown
Mark E. Brown
Attorney for Jimmy McLain Moore, appointed under the
Provisions of the Criminal Justice Act, 18 U.S.C. §3006A

